Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERA L 





  KENTUCKY DID NOT CORRECTLY 

  CALCULATE PAYMENT RATES FOR 

PRIVATE FACILITIES OR REPORT COST 

SETTLEMENT ADJUSTMENTS TO CMS 





  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.Af/airs@oig.hhs.gov.




                                                    LoriS. Pilcher
                                               Regional Inspector General

                                                     December 2013
                                                     A-04-12-08018
                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office of lnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs . This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations
The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FI NDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY 


 Kentucky improperly calculated its payment rates for two ofthree private intermediate
 care facilities for beneficiaries with intellectual and developmental disabilities and
 incorrectly reported cost settlements for State-operatedfacilities, resulting in excess
 Medicaid reimbursements of$511,929 (Federal share) and $24,652 (Federal share),
 respectively.

WHY WE DID THIS REVIEW

Kentucky's payment rates for State-operated intermediate care facilities for beneficiaries with
intellectual and developmental disabilities (ICF-IDD) from July 1, 2009, through June 30, 2012
(State fiscal years (SFYs) 2010 through 2012), were 191 percent higher than the average
payment rates for privately operated facilities. In addition, Kentucky was one of the States in the
southern region with the highest per capita expenditures during the same period. Previous audits
in other States identified excessive payments for beneficiaries with intellectual and
developmental disabilities. (See report numbers A-02-10-01027, A-02-11-01029, A-02-10­
01029, and A-04-12-08016.)

The objective of our audit was to determine whether Kentucky calculated and reported its
payment rates for intermediate care facilities for beneficiaries with intellectual and
developmental disabilities in accordance with Federal and State requirements.

BACKGROUND

In Kentucky, the Department for Medicaid Services (State agency) within the Kentucky Cabinet
for Health and Family Services is the State agency responsible for administering the State's
Medicaid program. The Kentucky Department for Behavioral Health, Developmental and
Intellectual Disabilities (DBHDID) is the State agency responsible for providing services and
support to Kentuckians with intellectual and developmental disabilities. DBHDID oversees
State-operated ICF-IDDs and privately operated facilities with 8 or more beds.

The State agency reports its Medicaid ICF-IDD expenditures on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, Form CMS-64 (CMS-64) to the
Centers for Medicare & Medicaid Services (CMS). CMS uses the information on the CMS-64 to
reimburse States for the Federal share of Medicaid expenditures.

WHAT WE FOUND

The State agency calculated its payment rates for State-operated ICF-IDDs in accordance with
Federal and State requirements in SFYs 2010 through 2012. However, the State agency did not
correctly calculate its payment rates for two of three private facilities. Instead of calculating its
payment rates for private facilities using the most current cost reports (20 10), the State agency
used older·(2009) cost reports to calculate 2011 payment rates for nursing costs and used
projections (estimates) to calculate all other costs. These miscalculations occurred because the
State agency did not follow its State plan when calculating payment rates for private facilities.


Kentucky Intermediate Care Facilities (A-04-12 -08018)
As a result of using the older cost reports, the State agency received excess Medicaid
reimbursement of$511,929 (Federal share).

In addition, the State agency incorrectly reported cost settlement adjustments of $10,428,503 on
the CMS-64 report for State-operated facilities, resulting in an overpayment of $24,652 (Federal
share). This overpayment occurred because the State agency did not follow Federal guidelines
when reporting cost settlement adjustments for State-run facilities. Specifically, it reported
adjustments on the wrong line and used the wrong Federal Medical Assistance Percentage rate to
determine the Federal share of payments.

WHAT WE RECOMMEND

We recommend that the State agency:

    • 	 adjust its next CMS-64 quarterly report to reimburse the Federal Government $511 ,929
        for improperly calculated private facility payment rates;

    • 	 adjust its next CMS-64 quarterly report to reimburse the Federal Government $24,652,
        for improperly reported State-operated facility cost settlements;

    • 	 ensure that it calculates rates, in accordance with the State plan, using the most recent
        annual cost reports; and

    • 	 ensure that it reports cost settlement adjustments on the CMS-64 in accordance with
        Federal regulations.

STATE AGENCY COMMENTS AND OUR RESPONSE

In comments on our draft report, the State agency did not specifically address our first
recommendation, although it said that it did not concur with our underlying finding that the
private facility payment rates were improperly calculated. The State agency believed that it had
followed the State Plan and State regulations in establishing payment rates for private facilities.

In comments on our second recommendation, the State agency said that it had made the
necessary line item corrections to the March 31,2013, CMS-64 report.

The State agency did not address our third or fourth recommendation.

To better understand the State agency's written response to our draft report, we held followup
discussions with the State agency and requested additional documentation.

In response to our followup questions regarding the cost reports, the State agency said that, at the
time of our audit, the desk reviewed reports were not available. Nevertheless, we continue to
assert that the State agency did not calculate payment rates, as required, by using the most recent
cost reports available, and, as a result, overpaid some private facil ities. We also continue to
recommend that the State agency reimburse the Federal Government for any identified



Kentucky Intermediate Care Facilities (A-04- 12-08018)                                                ii
overpayments, and we emphasize our third recommendation that the State agency ensure that it
uses the most recent cost reports to calculate payment rates.

Although the State agency indicated that it had made the necessary corrections in response to our
second recommendation, we determined during our subsequent meetings that it had incorrectly
applied those corrections. The State agency agreed to revisit its corrections and fix any errors.
Therefore, we reiterate our second and fourth recommendations.




Kentucky Interm ediate Care Facilities (A -04-12-080 I 8)                                      iii
                                                     TABLE OF CONTENTS 



INTRODUCTION .................................................... .................. ..... .... ................... .............. ..... 1 


           Why We Did This Review ............................................................................................. 1 


           Objective ........................................................................................................................ 1 


           Background .................................................................................................................... 1 

                 Kentucky's Medicaid Program .......................................................................... 1 

                 Kentucky's Intermediate Care Facilities for Beneficiaries With Intellectual 

                   and Developmental Disabilities ...................................................................... 2 


           How We Conducted This Review.............. ....................................................... ............. 2 


FINDINGS ................................................................................................................................. 2 


           Kentucky Did Not Correctly Calculate Private Facility Payment Rates ................. .. .... 3 


           Kentucky Did Not Correctly Report State-Operated Facility 

            Cost Settlement Adjustments ...................................................................................... 3 


RECOMMENDATIONS ........................................................................................................... 4 


STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR 

GENERAL RESPONSE ............................................................................................................ 4 


           State Agency Comments ................................................................................................ 4 


           Office oflnspector General Response ........................................................................... 5 


APPENDIXES 


           A: Related Office oflnspector General Reports .......................................................... 6 


           B: Audit Scope and Methodology.......................................................... .. ..................... 7 


           C: Federal Requirements............................................................................................... 9 


           D: State Agency Comments ............................ ............................................................. 12 





Kentucky Intermediate Care Facilities (A-04-12-080 18)                                                                                              iv
                                             INTRODUCTION 


WHY WE DID THIS REVIEW 


Kentucky's payment rates for State-operated intermediate care facilities for beneficiaries with
intellectual and developmental disabilities (ICF-IDD) from July 1, 2009, through June 30, 2012
(State fiscal years (SFYs) 2010 through 2012), were 191 percent higher than the average
payment rates for privately operated facilities. In addition, Kentucky was one of the States in the
southern region with the highest per capita expenditures during the same period. Previous audits
in other States identified excessive payments for beneficiaries with intellectual and
developmental disabilities. (See Appendix A.)

OBJECTIVE

The objective of our audit was to determine whether Kentucky calculated and reported its
payment rates for intermediate care facilities for beneficiaries with intellectual and
developmental disabilities in accordance with Federal and State requirements.

BACKGROUND

Kentucky's Medicaid Program

In Kentucky, the Department for Medicaid Services (State agency) within the Kentucky Cabinet
for Health and Family Services is the State agency responsible for administering the State's
Medicaid program. Kentucky's Medicaid program provides health care for approximately
960,000 people and operates with an annual budget of approximately $5.5 billion.

For SFYs 2010 through 2012, the State reported $414,069,420 ($317,100,068 Federal Share) in
ICF-IDD expenditures for a variety of services provided to beneficiaries with intellectual and
developmental disabilities. During our audit period, the State operated 10 ICF-IDDs. The State
agency reported Medicaid expenditures on behalf of 494 beneficiaries, totaling $329,768,285
($252,527,495 Federal share). In addition to the State-operated facilities, Kentucky had 3 private
small residential ICF-IDD homes located in community settings. The State agency reported
Medicaid expenditures on behalf of 183 beneficiaries, totaling $84,301,135 ($64,572,573 Federal
share) for these facilities .

The Kentucky Department for Behavioral Health, Developmental and Intellectual Disabilities
(DBHDID) is the State agency responsible for providing services and support to Kentuckians
with intellectual and developmental disabilities. The DBHDID oversees State-operated ICF­
IDD s and privately operated facilities with 8 or more beds.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process and pay Medicaid claims. The State
agency reports its Medicaid ICF-IDD expenditures on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program, Form CMS-64 (CMS-64) to the Centers for




Kentucky Intermediate Care Facilities (A -04-12-080 18)                                           I
Medicare & Medicaid Services (CMS). CMS uses the information on the CMS-64 to reimburse
States for the Federal share of Medicaid expenditures.

Kentucky's Intermediate Care Facilities for Beneficiaries With Intellectual and
Developmental Disabilities

In Kentucky, the DBHDID provides leadership, in partnership with others, to prevent disability,
build resilience in individuals and their communities, and facilitate recovery for people whose
lives have been affected by mental illness, intellectual disability, other developmental disability,
or substance abuse. Kentucky's payment rates for State-operated ICF-IDDs in SFYs 2010
through 2012 were 191 percent higher than the average payment rates for privately operated
facilities. During this period, the per-patient payment rate at the 10 State-operated facilities
ranged from $352 to $1,074 per day, with an average payment rate of$777 per day.

In recent years, the State has taken steps to transition from large State-run institutions to smaller,
community-based homes. During this period, the per-patient payment rate at the 3 privately
operated facilities ranged from $366 to $439 per day, with an average payment rate of $407 per
day.

HOW WE CONDUCTED THIS REVIEW

We obtained and reviewed the ICF-IDD's cost reports for SFYs 2010 through 2012 and
recalculated the Medicaid daily rates using the actual costs reported in the cost reports. We then
compared the number of patients and payment rates for State-operated and privately operated
ICF-IDDs. We also obtained and reviewed the State agency's MMIS data for all ICF-IDD
claims paid from July 1, 2009, through June 30,2012, and compared this information with the
CMS-64s submitted for quarters ending September 30, 2009, through June 30, 2012, to
determine the Medicaid reimbursement expenditures reported to CMS for ICF-IDD services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, and Appendix C lists the
Federal and State requirements related to payment rates and reporting requirements for ICF­
IDDs.

                                                FINDINGS

The State agency calculated its payment rates for State-operated ICF-IDDs in accordance with
Federal and State requirements in SFYs 2010 through 2012. However, the State agency did not
correctly calculate its payment rates for 2 of the 3 private facilities. Instead of calculating its
payment rates for private facilities using the most current cost reports (2010), the State agency
used older (2009) cost reports to calculate 2011 payment rates for nursing costs and used



Kentucky Intermediate Care Facilities (A-04-12-08018)                                                    2
projections (estimates) to calculate all other costs. These miscalculations occurred because the
State agency did not follow its State plan when calculating payment rates for private facilities.
As a result of using the older cost reports, the State agency received excess Medicaid
reimbursement of$511,929 (Federal share).

In addition, the State agency did not follow Federal guidelines when reporting cost settlement
adjustments for State-run facilities. Specifically, it incorrectly reported cost settlement
adjustments of$10,428,503 on the CMS-64 report for State-operated facilities, resulting in an
overpayment of$24,652 (Federal share). The overpayment occurred because the State agency
reported adjustments on the wrong line and used the wrong FMAP rate to determine the Federal
share of payments.

KENTUCKY DID NOT CORRECTLY CALCULATE PRIVATE FACILITY PAYMENT
RATES

The State plan (Attachment 4.19-D) requires that the actual expenditures from the most recent
available cost reports be used to calculate payment rates, even if those cost reports are unaudited.
According to the State plan, all ICF-IDD payment rates should be calculated in the same manner,
regardless of whether the facility is State or privately operated.

The State agency did not correctly calculate its payment rates for two of three private facilities
because it did not follow its State plan when calculating payment rates for these facilities.
Instead of calculating its payment rates for private facilities using the most current cost reports
(20 10), the State agency used older (2009) cost reports to calculate 2011 payment rates for
nursing costs and used projections (estimates) to calculate all other costs.

These miscalculations occurred because the State agency did not follow its State plan when
calculating payment rates for private facilities. As a result of using older cost reports to calculate
payment rates for the private facilities, the State agency received excess Medicaid
reimbursement of $511,929 (Federal share).

KENTUCKY DID NOT CORRECTLY REPORT STATE-OPERATED FACILITY COST
SETTLEMENT ADJUSTMENTS

The State Medicaid Manual (CMS Publication #45, chapter 2, 2500.1, Lines 7 and 8) requires
the total computable amount and the Federal share of adjustments that increase expenditures in
prior periods to be reported on line 7 of the CMS-64 with an attached Form CMS-64.9 (Medical
Assistance Payments). Also, adjustments to Federal funds, that are the result of increasing audit
adjustments, Federal Medical Assistance Percentage (FMAP) rate changes, or corrections of
amounts previously reported, must be reported on line 8.

The State agency did not follow Federal regulations when reporting cost settlement adjustments
for State-run facilities. When the State agency submitted its CMS-64 report for the quarter
ending June 30, 2012, it incorrectly reported cost settlement adjustments of$10,428,503 for the
2006 and 2007 cost reports for State-operated facilities. Specifically, for the period ending
June 30, 2006, the State agency incorrectly reported $8,887,778 for cost settlement



Kentucky Intermediate Care Facilities (A -04-12-08018)                                                3
reimbursement on line 7 of the CMS-64 report as a prior-period adjustment to line 3a on the
CMS-64 (the category for nursing facility- regular) instead of to line 4a (the category for ICF­
IDD- Public).

Also, for the period ending June 30, 2007, the State agency reported $1,540,725 on line 4a of the
CMS-64 (the category for ICF-IDD- Public) as a current expenditure instead of reporting it on
line 7 of the CMS-64 report as a prior-period adjustment for line 4a (the category for ICF-IDD­
Public).

As a result, the State agency received an overpayment of$24,652 (Federal share). The
overpayment occurred because the State agency reported adjustments on the wrong line and used
the wrong FMAP rate to determine the Federal share of payments. The adjustments were
necessary because the State agency did not finalize cost settlements for Federal fiscal years 2005
through 2007 until SFY s 2010 through 2012.

                                        RECOMMENDATIONS

We recommend that the State agency:

    • 	 adjust its next CMS-64 quarterly report to reimburse the Federal Government $511 ,929
        for improperly calculated private facility payment rates;

    • 	 adjust its next CMS-64 quarterly report to reimburse the Federal Government $24,652,
        for improperly reported State-operated facility cost settlements;

    • 	 ensure that it calculates payment rates, in accordance with the State plan, using the most
        recent annual cost reports; and

    • 	 ensure that it reports cost settlement adjustments on the CMS-64 in accordance with
        Federal regulations.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

State Agency Comments

In comments on our draft report, the State agency did not specifically address our first
recommendation, although it said that it did not concur with our underlying finding that the
private facility payment rates were improperly calculated. The State agency believed that it had
followed the State Plan and State regulations in establishing payment rates for private facilities.

In comments on our second recommendation, the State agency said that it had made the
necessary line item corrections to the March 31,2013, CMS-64 report.

The State agency did not address our third or fourth recommendation.




Kentucky Intermediate Care Facilities (A-04-12-08018)                                                 4
The State Agency comments are included in their entirety as Appendix D.

Office of Inspector General Response

To better understand the State agency's written response to our draft report, we held followup
discussions with the State agency and requested additional documentation.

We based our first recommendation on, among other items, our review of cost report information
for the private facility, Cedar Lake Lodge, which revealed that the facility's rates resulted in an
overpayment during our audit period. In response to our followup questions regarding the cost
reports, the State agency said that, at the time of our audit, the desk reviewed reports were not
available. Nevertheless, we continue to assert that the State agency did not calculate payment
rates, as required, by using the most recent cost reports available, and, as a result, overpaid some
private facilities. We also continue to recommend that the State agency reimburse the Federal
Government for any identified overpayments, and we emphasize our third recommendation that
the State agency ensure that it uses the most recent cost reports to calculate payment rates.

Although the State agency indicated that it had made the necessary corrections in response to our
second recommendation, we determined during our subsequent meetings that it had incorrectly
applied those corrections. The State agency agreed to revisit its corrections and fix any errors.
Therefore, we reiterate our second and fourth recommendations.




Kentucky Intermediate Care Facilities   (A -04-12~080 18)                                          5
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS 



                                                                 Report          Date
                        Report Title                            Number          Issued
New York Claimed Some Unallowable Costs for Services by      A-02-1 0-01027   8/14/ 12
New York City Providers Under the State's Developmental
Disabilities Program Waiver
Medicaid Rates for New York State-Operated Developmental     A-02-11-01029    2/8/ 12
Centers May Be Excessive
Review ofMedicaid Payments for Services Under New Jersey's   A-02-1 0-01029   4/20/12
Section 1915(c) Community Care Waiver Program From
January I, 2005, Through December 31, 200 7
Tennessee Incorrectly Reported Costs for Individuals With    A -04-12-08016   4/18/2013
Intellectual and Developmental Disabilities




Kentucky Intermediate Care Facilities (A-04-12-080 18)                                    6
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Our audit covered payment rates for Medicaid beneficiaries residing in intermediate care
facilities for beneficiaries with intellectual and developmental disabilities for SFY s 201 0 through
2012. The State agency reported Medicaid expenditures on behalf of 677 beneficiaries, totaling
$414,069,420 ($317,100,068 Federal Share).

During our audit, we did not review the overall internal control structure of the State agency,
DBHDID, or the Medicaid program. Instead, we limited our internal control review to those
controls related to the objective of our audit. While we examined selected expenditures from
facility cost reports, we did not verify the accuracy of all cost information provided by the State.

We performed fieldwork at the Department of Medicaid Services in Frankfort, Kentucky, in
August and September 2012.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws and regulations and the Medicaid State plan;

    • 	 held discussions with officials from CMS, Myers and Stauffer CPAs, the State agency,
        the Division of Administration and Financial Management, and the Division of
        Healthcare Facilities Management to gain an understanding of the State's rate-setting
        methodology;

    • 	 obtained MMIS data from the State agency for all ICF-IDD claims paid from July 1,
        2009, through June 30, 2012;

    • 	 obtained CMS-64 reports from CMS for quarters ending September 30, 2009, through
        June 30, 2012, to determine the Medicaid expenditures reported to CMS for ICF-IDD
        services;

    • 	 reviewed the MMIS data files, calculated total dollars spent for State-operated and
        privately operated facilities during our audit period and matched then to the expenditures
        reported on the CMS-64s;

    • 	 traced costs used to calculate payment rates back to the appropriate annual cost reports
        and recalculated the payment rates to verify that the State agency calculated them
        correctly, per Federal guidelines;

    • 	 visited and interviewed officials from two of the State's ICF-IDDs (Oakwood and
        Hazelwood) to understand how the State managed its ICF-IDDs;



Kentucky Intermediate Care Facilities (A-04-12-0801 8)                                                 7
    • 	 visited, and interviewed officials from, a privately operated ICF-IDD (Cedar Lake Lodge
        and Cedar Lake Lodge Park Place) to understand the facility's operations;

    • 	 recalculated the SFY 2010 through 2012 Medicaid daily payment rates for ICF-IDDs
        using the actual costs reported in the SFY 2010 through 2012 cost reports provided by the
        State;

    • 	 compared the State-operated ICF-IDD payment rates with privately operated ICF-IDDs
        payment rates to determine the difference between the rates; and

    • 	 compared the number of patients at the State-operated ICF-IDDs with those at the 

        privately operated ICF-IDDs. 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Kentucky Intermediate Care Facilities (A-04-12-08018)                                             8
                           APPENDIX C: FEDERAL REQUIREMENTS 


INTERMEDIATE CARE FACILITY PER DIEM CALCULATION METHODOLOGY

Social Security Act

Section 1902(a)(30)(A) ofthe Social Security Act requires that payment for services be
consistent with efficiency, economy, and quality of care and be sufficient to enlist enough
providers so that care and services are available under the plan at least to the extent that such
care and services are available to the general population in the geographic area.

The State Medicaid Manual, CMS Publication #45, Chapter 2, 2500.1

Line 7 - Adjustments Increasing Claims for Prior Quarters. Enter the total computable amount
and Federal share of adjustments increasing claims for expenditures in prior periods, and attach
Form HCFA-64.9p (Medical Assistance Payments) and/or Form HCFA-64.10p (State and Local
Administration). Where more than one form is used, enter on the Summary Sheet the sum of all
amounts shown on the referenced lines on each.

Line 8 - Other Expenditures. Enter the amounts, other than those reported on Lines 6 and 7, as
an adjustment to Federal funds. Examples include increasing audit adjustments, FMAP rate
changes, and corrections of amounts previously reported.

State Reporting Requirements

The Medicaid Program Integrity Manual, Chapter 11, section 11000, states:

        [T]he Quarterly Medicaid Statement of Expenditures for the Medical Assistance
        Program (Form CMS 64) is a quarterly statement of actual program costs and
        administrative expenditures for which States are entitled to Federal
        reimbursement under the authority of Title XIX of the Act. Form CMS 64 is also
        the vehicle for adjustments made to correct overpayments and underpayments.
        Spending reported on Form CMS 64 is a tabulation of actual, documented
        Medicaid expenditures, drawn from source documents such as invoices, cost
        reports and eligibility records. If a State is unable to document a claim for
        expenditures made in the current quarter, the claim must be withheld until it can
        be supported. The State then reports the amount on a future Form CMS 64 as a
        prior period adjustment. Spending therefore reflects all expenditures made during
        the quarter, not all services used.

Kentucky State Plan

The Kentucky Medicaid program pays providers the amount determined for services furnished at
an intermediate care facility in accordance with the requirements of the Kentucky State plan.




Kentucky Intermediate Care Facilities (A-04-12 -08018)                                              9
Cost Reports for Cost-Based Facilities

Facilities shall use a uniform cost reporting form for submission at the facility's fiscal year
end. The single State agency shall set a uniform rate year for cost-based NF's and ICF-MRs
(July 1 -June 30) by taking the latest available cost data which is available as of May 16 of each
year and trending the facility costs to July 1 of the rate year.

         1. 	 If the latest available cost report period has not been audited or desk reviewed
              prior to rate setting, the prospective rates shall be based on cost reports which
              are not audited or desk reviewed subject to adjustment when the audit or desk
              review is completed. If desk reviews or audits are completed after May 16,
              but prior to universal rate setting for the rate year, the desk review or audited
              data shall be used (Attachment 4.19-D, Facility Reimbursement- Methods
              and Procedures for January 1, 2000 and Thereafter, p. 2).

The rate calculation in the Kentucky State plan specifies that payment rates should be calculated
using the cost-based and price-based reimbursement methodologies as described in Attachment
4.19-D, Exhibit B. This Exhibit sets forth the methods and standards for establishing the rates as
follows:

Section 220, "Introduction to Cost-Based Reimbursement System," states:

         B. 1. This cost-based system is designed to provide a reasonable return in relation
         to cost but also contains factors to encourage cost containment. Under this
         system, payment shall be made to State owned or operated, non-State but
                                                                               1
         government owned or operated, and non-governmental ICF/MR/DDs on a
         prospectively determined basis for routine cost of care with no year-end
         adjustment required other than adjustments which result from either desk reviews
         or field audits.

         B. 2. Total reimbursement to State owned or operated ICF/MR/DDs in aggregate
         shall be limited to the lesser of actual costs or the amount the State reasonably
         estimates would have been paid under Medicare Payment Principles.

         B. 2. Cost associated with prescription drugs should be removed from the routine
         cost.

         C. Ancillary services as defined, shall be reimbursed on a cost basis with a year­
         end retroactive settlement. As with routine cost, ancillary services are subject to
         both desk reviews and field audits that may result in retroactive adjustments.

         D. The basis of the prospective payment for routine care cost is the most recent
         annual cost report data (available as of May 16) trended to the beginning of the

1
  Although both State and Federal laws have replaced terms such as mental retardation with intellectual disability,
the phrase "mentally retarded" remains in the State Plan at this time.




Kentucky Intermediate Care Facilities (A-04-12-08018)                                                                 10
        rate year and indexed for the prospective rate year. The routine cost is divided
        into two major categories: Nursing Services Cost and All Other Cost.

Section 290, "Prospective Rate Computation," states:

        E. The total Cost-Based Facility Cost for each category, after trending and
        indexing, shall be divided by total Certified Cost-Based Facility days in order to
        compute a per diem. A minimum occupancy limit of ninety (90) percent of
        certified bed days available, (except for State government-owned facilities shall
        be seventy (70) percent of certified bed days) or actual bed days used if greater,
        and a maximum occupancy limit of ninety-eight (98) percent computed in the
        same manner, shall be used in computing the per diem.

Section 340, "Payment for Ancillary Services," states:

        The reasonable, allowable, direct cost of ancillary services as defined provided as
        a part of total care shall be compensated through the Department for Medicaid
        Services on a reimbursable cost basis as an addition to the prospective rate.

Section 440, " Cost Reporting," states:

    C. 	The cost report shall be due within sixty (60) days after the provider's fiscal year
        ends.

    D. 	 Providers may request in writing a thirty (30) day extension. The request shall
         explain in detail why the extension is necessary. There shall be no automatic
         extension of time for the filing of the cost report. After the extension period has
         elapsed, the Medicaid Program shall suspend all payments to the provider until an
         acceptable cost report is received.




Kentucky Interm ediate Care Facilities (A -04-12-0801 8)                                       11
                                APPENDIX D: STATE AGENCY COMMENTS




                                      CABINET FOR HEALTH AND FAMILY SERVICES
                                        DEPARTMENT FOR MEDiCAID SERVICES

Steven L Beshear                                      275 E. Main Street, 6C-B
                                                                                                      Audrey Haynes
Governor                                                Frankfort, KY 40621                                   Secretary
                                                          P: 502.564.6511
                                                          F: 502.564.3852                          Lawrence Kissner
                                                         www.chfs. ky.gov
                                                                                                         Commissioner

      August 12, 2013



      Lori S. Pilcher
      Office of Audit Services, Region IV
      61 Forsyth Street, SW, Suite 3t41
      Atlanta, GA 30303


      Re:        Report Number: A-04-12-08018


      Dear Ms. Pilcher,

      Thank you for your review of both Kentucky's Private and Public ICF-MR Facilities, The opportunity to
      work with your Auditors was very valuable to my staff. Herein, please find the Commonwealth of
      Kentucky Department for Medicaid Service's (OMS) response to your Report Number A-04-12-08018.
      The response has been organized to follow the report findings. All attachments are referenced within the
      document.

      (Quoting the Report) What We Found:

      The State agency calculated its payment rates for State-operated ICF-IDDs in accordance with Federal
      and State requirements in SFYs 2010 through 2012. However, the State agency did not correctly
      calculate its payment rates for private facilities. Instead of calculating its payment rates for private facilities
      using the most current cost reports (2010), the State agency used older (2009) cost reports to calculate
      2011 payment rates for nursing costs and used projections (estimates) to calculate all other costs. These
      miscalculations occurred because the State agency did not follow its State plan when calculating payment
      rates for private facilities. As a result ofusing the older cost reports, the State agency received excess
      Medicaid reimbursement of $511,929 (Federal share).

      In addition, the State agency incorrectly reported cost settlementadju~trn(9nts of $10,448,503 on the
      CMS-64 report for State-operated facilities, resulting in an overpayment of $24,652 (Federal share). The
      overpayment occurred because the State agency did not follow Federal guidelines when reporting cost
      settlement adjustments for State-run facilities. Specifically, it reported adjustments on the wrong line and
      used the w(ong Federal Medical Assistance Percentage rate to determine the Federal share of payments.




KentuckyUnbrid!edSpirit.corn                                                           An Equal Opportunity Employer M/F/0

          Kentucky Intermediate Care Facilities (A-04-12-08018)                                                12
Lori Pilcher 

August 12, 2013 

Page2 



What We Recommend:

We recommend that the State agency:

• adjust its next CMS-64 quarterly report to reimburse the Federal government $511,929 for improperly 

calculated private facility payment rates; 


• adjust its next CMS-64 quarterly report to reimburse the Federal government $24,652, for improperly
reported State-operated facility cost settlements;

• ensure that rates are calculated, in accordance with the State plan, using the most recent annual cost
reports; and

• ensure that cost settlement adjustments are reported on the CMS-64 in accordance with Federal
regulations.

Commonwealth of Kentucky Department of Medicaid Services • RESPONSE:

Throughout the report it is stated that "Kentucky improperly calculated its payment rates for private
facilities". The report describes that Kentucky did not follow the State Plan for the calculations. It is
reported that rather than using the most recently submitted cost report (201 0), the State used a
combination of the 2009 report and projected 2010 costs to calculate 2011 payment rates.

For the 2011 rates noted (effective 7/1/11-6/30/12) there were three (3) licensed private facilities, Wendell
Foster, Cedar Lake Lodge, and Cedar Lake Lodge Park Place. Each facility's rate calculation is
described below:

 1. 	 Rates established for Wendell Foster did utilize the 2010 cost report (not the 2009 with 2010 

      projections). Therefore, this audit comment does not apply to all private facilities and rates set. 


 2. 	 Cedar Lake Lodge Park Place is a new facility that was licensed with Kentucky Medicaid effective
      10/29/10. Therefore, the 2010 cost report submitted only included 2 months of actual costs. Per
      the Kentucky State Plan, Attachment 4.19-D page 2:

     "Partial year or budgeted cost data may be used if a full year's data is unavailable Unaudited reports
     shall be subject to adjustment to the audited amount".

     In accordance with the State Plan and Kentucky state regulations, for a new facility a projected cost
     report will be relied upon to establish the interim rate for a facility until the first full year cost report is
     received. Therefore, in compliance with the State Plan and regulations, the 7/1/11 interim rate for
     Cedar Lake Park Place was based on a projected cost report. The final rate for 7/1/11 will be based
     on the 12/31/11 cost report, which is the first full year cost report. Therefore, this provider's rate was
     set in full compliance and in accordance with regulations and the State Plan.




  Kentucky Intermediate Care Facilities (A-04-12-08018)                                                   13
       Lori S. Pilcher 

       August 12, 2013 

       Page3 




  3. 	 Cedar Lake transitioned beds to Cedar Lake Park Place to open the new facility. This transition of
       beds created a significant staffing ratio change. Per the Kentucky State Plan Attachment 4.19-D
       page 3,

       "Interim rates are established on July 1 of each year. Interim rates will be adjusted to include the
       cost of staffing ratio increases, level of service increases, to accommodate changes of
       circumstances affecting resident patient care, to correct errors in the rates (whether due to action or
       inaction of the state or the facilities), or to address displacement of residents. Rates shall-be
       adjusted to an audited cost base if an unaudited cost report has been used due to new construction
       or other specified reasons which requires using an unaudited cost report."

   In addition to the State Plan, per the Kentucky state regulation, interim rates may be amended due to a
   staffing ratio change. The provider requested a rate increase to reflect the change in services and the
   Department for Medicaid Services approved this rate revision. The provider requested that the increase
.. become...effe,g_tjveJGllllQ. Th~r~(Pr~Jh~.2Q1Q_cp~tr~,epr:twhich inclljd~d th~ P~rk PlaCE:) beds, if utilized
   would not represent a cosfPer day     for                  aCiuallybe'proviC:ied
                                           ser-VIces-that would                      by~Cedar Lake for 7/1/11­
   6/30/12. Therefore, in compliance with the State Plan and regulations    , OMS  established a reasonable
   rate utilizing the 2009 Nursing Services Costs, and 2010 projected Other Costs and Days to establish the
   rate.

Note: The total costs utilized to establish the 7/1/11 rate for Cedar Lake are actually less than the costs 

that would have been used with the 2010 cost report. (The variance in the per diem paid and what the 

2010 per diem would have been is due to the change in total days, due to there-licen sing of beds.) 

In summary, the rates calculated for the private ICF facilities during the period of the HHS OIG review 

were calculated in conformance with the Kentucky State Plan. 


 Please also note that the necessary line item corrections to the CMS64 were made during the QE3.31.13
 submission of the report.

 This response should be inclusive of all items outlined in your report, Report Number: A-04-12-08018. 

 Should you or your team require anything further, please contact Paul Cooper at any time. He can be 

 reached at 502-564-4321. 



 Most Sincerely,


 (~
 f .   J'




 l&wrence Kissner, Commissioner 

 Kentucky Department for Medicaid Services 



Enclosures




    Kentucky Intermediate Care Facilities (A-04-12-08018)                                              14
                                                                                                         Attachment 4.!9-D
                                                                                                         Pttgc2


         c. 	    A                               as an institution for mental disea>e;



         e. 	    An intermediate care



         Facilities shall use a unilorm cost''"'""'"'"'"
                  shall set a uniform rate
                    cost dnta wilich is av,mll.llle
         year.
                 If the latest available cost                 bas not been audited or desk reviewed                              the
                 Pt<ISPCctive rates shall be             on cost  repm1s   which   are  l'lfJt audited or
                 ad.iu.Stlrnel~t when the audit or desk review is                   If desk reviews <lr audits are col'UP'tett:a
                         16, but       to univefS!Il nrte        f(tr ihe nexl rate year, !he desk review or llil<1ited




         3. 	     llacllities    on t.he basis
                 back to all<>w~:blc cost.



          Allowable costs are cost found necessary                          the       state agency       Medicare Title XVm·A
                           as ofherwise stme<t                                courtesy a!iowances for non-~!'itle XIX      are
                         '"""""'"'~ costs. A retum on             is not allowed,




Kentucky Intermediate Care Facilities (A-04-12-08018)                                                                                  15
                                                                                                         Attachment 4.19-D
                                                                                                         Page2


         c.      A nun>ing facility           tt'> an institution   for mental disease;



         e.      An intermediate care           for the mentally ret!tl'dcd and developmentally disabled; and


                                                                                                                  The single state
         Facilities shall use a uniform cost reJJ10rtmg form for submission at the                                       tite latcs
                  shall set a uniform rate         for cost-ba~cd NF's nod lCF-MR$
                                                 as of May 16 of eaeh year and trending                                 ofthe r~~:tc
                         data which is
         year.
                                                             ims not been audited or desk. reviewed                              the
                 If thil latest available cost                                                                                    to
                 nrosoectillc rates shall be            on cost reports which are oot audited or
                              ! when  the  audit or desk review is              If  desk   reviews or audits !lte col:llP[C!!lld
                 adju~11me,1~
                        16, but        to universal rate       for !he next rate )'ear, !lie desk review or audited


                                                                                                                       report:;
         :2.
                  00

         3.                                                                     cost reporn shall have their reimbursement scnled




                                                    and rellSOnable by the         state age11ey                  Title XVIII-A
          Allowable costs are coot found                                                                             patient:; are
                           as <1thenvlse stated.       debts,         and  courtesy a!iow!lllees for non-'fitle XIX
                         amlv.1Jime oos1s. A return 11n equity is uot allowed.




Kentucky Intermediate Care Facilities (A-04-12-08018)                                                                                  16
